Before the Committee on Commerce, Science, and Transportation
United States Senate


                           Refocusing Efforts To
For Release on Delivery
Expected at
2:30 p.m. EDT
Wednesday
April 11, 2007             Improve Airline
                           Customer Service
CC-2007-042




                           Statement of
                           The Honorable Calvin L. Scovel III
                           Inspector General
                           U.S. Department of Transportation
Mr. Chairman, Mr. Vice Chairman, and Members of the Committee:

I appreciate the opportunity to be here today to discuss airline customer service. This
hearing is both timely and important given the recent events that occurred this past
winter involving extended ground delays. In some cases, passengers were stranded
aboard aircraft at the gate or on the airport tarmac for 9 hours or more due to severe
weather conditions.

It is also important to recognize that Secretary Peters has serious concerns about the
airlines’ treatment of passengers during extended ground delays; as such, she
requested that we examine the airlines’ customer service plans, contracts of carriage, 1
and internal policies dealing with long, on-board delays and the specific incidents
involving American Airlines and JetBlue Airways when passengers were stranded on
board aircraft for extended periods of time. She also requested that we provide
recommendations on what actions should be taken to prevent a recurrence of such
events.

Currently, the debate is over the best way to ensure improved airline customer
service: either through voluntary implementation by the airlines, legislation,
additional regulations, or some combination of these. This is clearly a policy issue for
Congress to decide. Our testimony today is based on the results of our previous
airline customer service reviews as well as our ongoing work. I would like to discuss
three key points dealing with actions that would help to improve customer service:

    • The airlines must refocus their efforts to improve customer service. In
      November 2006, we reported 2 that Air Transport Association (ATA) 3 airlines’
      customer service plans were still in place to carry out the provisions of the Airline
      Customer Service Commitment that the airlines promised to execute. These
      provisions include meeting passengers’ essential needs during long, on-board
      delays. However, we found that the airlines must refocus their efforts on airline
      customer service by resuming efforts to self-audit their customer service plans,
      emphasizing to their customer service employees the importance of providing
      timely and adequate flight information, disclosing to customers chronically
      delayed flights, and focusing on the training for personnel who assist passengers
      with disabilities.



1
    A contract of carriage is the document air carriers use to specify legal obligations to passengers. Each air carrier must
    provide a copy of its contract of carriage free of charge upon request. The contract of carriage is also available for public
    inspection at airports and ticket offices.
2
    OIG Report Number AV-2007-012, “Follow-Up Review: Performance of U.S. Airlines in Implementing Selected
    Provisions of the Airline Customer Service Commitment,” November 21, 2006. OIG reports and testimonies can be
    found on our website: www.oig.dot.gov.
3
    The Air Transport Association is the trade association for America’s leading air carriers. Its members transport over
    90 percent of all the passenger and cargo traffic in the United States.


                                                                                                                               1
    • The Department should take a more active role in airline customer service
      issues. Oversight and enforcement of air traveler consumer protection rules are
      the responsibility of the Department’s Office of General Counsel. These rules
      encompass many areas, including unfair and deceptive practices and unfair
      methods of competition by air carriers and travel agents, such as deceptive
      advertising. We found that while the Office has made efforts to enforce civil
      rights violations, it needs to improve its oversight of consumer protection laws,
      including its efforts to monitor compliance with the terms and conditions of
      enforcement actions. In recent years, the Office has not conducted on-site
      compliance reviews, relying instead on self-certifications and company-prepared
      reports submitted by the air carriers without supporting documentation.
    • The airlines must overcome challenges in mitigating extraordinary flight
      disruptions. This past winter’s severe weather events underscored the importance
      of improving customer service for passengers who are stranded on board aircraft
      for extended periods of time. According to the Department’s Bureau of
      Transportation Statistics, approximately 722,600 flights were delayed in 2006 due
      to poor weather conditions (10 percent of all commercial flights). Meeting
      passengers’ essential needs during long, on-board delays is a serious concern of
      Secretary Peters and the Department. Therefore, she asked our office to examine
      the American Airlines and JetBlue Airways events of December 29, 2006, and
      February 14, 2007, respectively, and provide recommendations as to what, if
      anything, the airlines, airports, or the Government—including the Department—
      might do to prevent a recurrence of such events.

Before I discuss these points in detail, I would like to briefly describe why airline
customer service is a “front-burner” issue and highlight a few statistics on the
development of the current aviation environment.

As this Committee is aware, airline customer service took center stage in January
1999, when hundreds of passengers remained in planes on snowbound Detroit
runways for up to 8 and a half hours. After those events, both the House and Senate
considered whether to enact a “passenger bill of rights.”

Following congressional hearings on these service issues, ATA member airlines
agreed to execute a voluntary Airline Customer Service Commitment 4 to demonstrate
their dedication to improving air travel (see figure 1), with provisions such as meeting
passengers’ essential needs during long, on-board delays.




4
    ATA signed the Commitment on behalf of the then 14 ATA member airlines (Alaska Airlines, Aloha Airlines, American
    Airlines, American Trans Air, America West Airlines, Continental Airlines, Delta Air Lines, Hawaiian Airlines, Midwest
    Express Airlines, Northwest Airlines, Southwest Airlines, Trans World Airlines, United Airlines, and US Airways).


                                                                                                                        2
However, aviation delays and
                                                       Figure 1. Provisions of the Airline Customer
cancellations continued to worsen,                                 Service Commitment
eventually reaching their peak                     • Offer the lowest fare available.
during the summer of 2000. In                      • Notify customers of known delays, cancellations, and diversions.
                                                   • Deliver baggage on time.
2000, more than 1 in 4 flights                     • Support an increase in the baggage liability limit.
(26 percent) were delayed, with                    • Allow reservations to be held or cancelled.
an average arrival delay of                        • Provide prompt ticket refunds.
                                                   • Properly accommodate disabled and special-needs passengers.
51 minutes.                                        • Meet customers’ essential needs during long, on-aircraft delays.
                                                   • Handle “bumped” passengers with fairness and consistency.
Congress then directed our office                  • Disclose travel itinerary, cancellation policies, frequent flyer
                                                     rules, and aircraft configuration.
to evaluate the effectiveness of the               • Ensure good customer service from code-share partners.
Commitment and the customer                        • Be more responsive to customer complaints.
service plans of individual ATA
airlines.                                         Source: Airline Customer Service Commitment, June 1999

We issued our final report 5 in February 2001. Overall, we found that the ATA
airlines were making progress toward meeting the Commitment, which has benefited
air travelers in a number of important areas. We found that the airlines were making
the greatest progress in areas that are not directly related to a flight delay or
cancellation, such as offering the lowest fare available, holding reservations, and
responding in a timely manner to complaints.

Although the ATA airlines made progress toward meeting the Commitment, we found
that the Commitment did not directly address the underlying cause of deep-seated
customer dissatisfaction—flight delays and cancellations. This is still the case today.

Since our 2001 report, the air carrier industry has faced a series of major challenges,
including a weakened economy; the terrorist attacks of September 11, 2001; the
Severe Acute Respiratory Syndrome epidemic; the war in Iraq; and soaring fuel
prices. As we reported in November 2006, the network air carriers generated about
$58 billion in net losses from 2001 through 2005. They have also made
unprecedented changes to their operations to regain profitability. Eight commercial
air carriers have filed bankruptcy, two major air carriers have merged, and one has
ceased operations. While four of the eight air carriers have emerged from bankruptcy,
fuel prices continue to climb; this makes cost control a key factor in not only
sustained profitability but also in overall survival of an airline.

We revisited airline customer service issues to a limited extent following the
December 2004 holiday travel period, when weather and other factors led to severe
service disruptions in some parts of the country. While our review 6 focused on the
inconveniences experienced by Comair and US Airways passengers, we found that

5
    OIG Report Number AV-2001-020, “Final Report on Airline Customer Service Commitment,” February 12, 2001.
6
    OIG Report Number SC-2005-051, “Review of December 2004 Holiday Air Travel Disruptions,” February 28, 2005.


                                                                                                                        3
nearly half of all flights, system-wide, during the 7-day travel period were either
delayed or cancelled, affecting hundreds of thousands of passengers.

Flight delays and cancellations continue as a major source of customer dissatisfaction.
A review of vital statistics shows the environment that air travelers faced in 2006
compared to peak year 2000.

Traffic and Capacity:
 • The number of scheduled flights (capacity) declined from 8.1 million in 2000 to
   7.6 million in 2006, a drop of 6.4 percent. Scheduled seats declined by 9.5 percent
   between 2000 and 2006, from 921 million to 834 million.

 • Even as the number of flights and scheduled seats declined, passenger
   enplanements were up nearly 7 percent, from 699 million passengers in 2000 to
   745 million passengers in 2006.

 • Reduced capacity and increased demand led to fuller flights. For 2006, load
   factors averaged nearly 80 percent for 10 of the largest ATA airlines, compared to
   average load factors of just over 72 percent for 2000.

 • Reduced capacity and higher load factors can also result in increased passenger
   inconvenience and dissatisfaction with customer service. With more seats filled,
   air carriers have fewer options to accommodate passengers from cancelled flights.

Flight Delays:
 • The number of delayed flights has declined from 2.09 million in 2000 to
   2.02 million flights in 2006, a decrease of 3.5 percent.

 • The percentage of delayed flights also declined from approximately 26 percent in
   2000 to 25 percent in 2006.

 • Nevertheless, the average flight delay increased from 51 minutes in 2000 to
   53 minutes in 2006.

 • While flight delays have declined nationwide since 2000, some individual airports
   experienced significant reductions in service and a subsequent reduction in delays.
   However, traffic and delays continued to increase at other airports. For example,
   between 2000 and 2006, George Bush Intercontinental/Houston Airport
   experienced a 27-percent increase in scheduled flights and a 55-percent increase in
   delays. This increase is important to note because Houston added a new runway
   in 2003 at a cost of $267 million that was supposed to alleviate delays. In
   comparison, Newark International Airport had a 3-percent reduction in scheduled



                                                                                     4
      flights but experienced a 34-percent increase in flight delays during this same time
      period.

Consumer complaints are rising. While the 2006 Department of Transportation
(DOT) Air Travel Consumer Report disclosed that complaints involving U.S. airlines
for 2006 had declined by 6.6 percent (6,900 to 6,448) compared to complaints in
2005, February 2007 complaints increased by 57 percent (423 to 666) over complaints
in February 2006, with complaints relating to delays, cancellations, and missed
connections nearly doubling (127 to 247) for the same period.

Over the last several years,
DOT ranks flight problems                                      Figure 2. Air Travel Consumer
(i.e., delays, cancellations,                                        Complaints, 2006
and missed connections) as                                                 Others
the number one air traveler                                                                     Flight
                                                                Disability 12%
                                                                                               Problems
complaint, with baggage                                            6%
                                                                                                 29%
complaints and customer                                        Refunds
care 7 ranked number two and                                     7%
number three, respectively.                                Reservations
As shown in figure 2, flight                               Ticketing &
problems accounted for more                                 Boarding
                                                                                             Baggage
                                                              11%       Customer
than one-quarter of all                                                   Care                22%
complaints the Department                                                 13%
received in 2006.
                                               Source: DOT’s Air Travel Consumer Reports for 2006

Historically, most chronically delayed and cancelled flights occur during the busy
summer travel season—which will soon be upon us. The extent to which delays and
cancellations will impact passengers in 2007 depends on several key factors,
including weather conditions, the impact of the economy on air traffic demand, and
how existing capacity is managed at already congested airports.

I would now like to turn to my three points on airline customer service.

Airlines Must Refocus Their Efforts To Improve Customer Service
In June 2005, the Chairman of the House Subcommittee on Aviation requested that
we follow up on the performance of U.S. air carriers in implementing provisions of
the Commitment since the issuance of our 2001 report.




7
    Complaints such as poor employee attitude, refusal to provide assistance, unsatisfactory seating, and unsatisfactory food
    service are categorized as customer care complaints.


                                                                                                                           5
Unlike our prior work, which reviewed each provision, this review focused on
selected Commitment provisions. 8 We reviewed implementation of the selected
Commitment provisions by the 13 current ATA member airlines; this included
JetBlue Airways, which became an ATA member in 2001. JetBlue has not adopted
the June 1999 Commitment and does not consider itself bound by its provisions. We
also reviewed implementation of the selected provisions by two non-ATA airlines that
are not signatories to the Commitment—AirTran Airways and Frontier Airlines.

In November 2006, we reported that the ATA airlines’ customer service plans were
still in place to carry out the provisions of the Commitment and that the Commitment
provisions were still incorporated in their contracts of carriage, as we recommended
in our 2001 review. This is important because unlike DOT regulations, which are
enforced by the Department and may result in administrative or civil penalties against
an air carrier, contracts of carriage are binding contracts enforceable by the customer
against the air carrier.
However, we found that the airlines must refocus their efforts on airline customer
service by taking the following actions.

    • Resuming Efforts To Self-Audit Their Customer Service Plans: In our 2001
      report, we recommended, and the ATA airlines agreed, that the airlines establish
      quality assurance and performance measurement systems and conduct internal
      audits to measure compliance with the Commitment provisions and customer
      service plans.

      In June 2001 (about 5 months later), we confirmed that 12 of the 14 ATA airlines
      that were signatories to the Commitment had established and implemented their
      quality assurance and performance measurement systems. In our 2006 review,
      however, we found that the quality assurance and performance measurement
      systems were being implemented at just five of the ATA airlines. 9 The other ATA
      airlines had either discontinued their systems after September 11, 2001, or
      combined them with operations or financial performance reviews where the
      Commitment provisions were overshadowed by operational or financial issues.
      We also found that the two non-ATA airlines we reviewed did not have
      comprehensive quality assurance and performance measurement systems or
      conduct internal audits to measure compliance with their customer service plans.

      A quality assurance and performance measurement system is necessary to ensure
      the success of the Commitment and customer service plans. Therefore, the

8
    Our 2006 review focused on notifying passengers of delays and cancellations, accommodating passengers with
    disabilities and special needs, improving frequent flyer program issues, and overbooking and denied boardings. We did
    not include the Commitment provision regarding on-time checked baggage delivery, which was subject to a hearing
    before the House Subcommittee on Aviation in May 2006.
9
    At the time of our 2006 review, quality assurance and performance measurement systems were being implemented at
    Alaska Airlines, Continental Airlines, Delta Air Lines, Northwest Airlines, and United Airlines.


                                                                                                                       6
 success of the customer service plans depends upon each airline having a tracking
 system for compliance with each provision along with an implementation plan for
 the Commitment. These systems and audit procedures will also help DOT to more
 efficiently review the airlines’ compliance with the Commitment.

• Emphasizing to Their Customer Service Employees the Importance of
  Providing Timely and Adequate Flight Information: The ATA airlines
  committed to notify customers who are either at the airport or on board an affected
  aircraft of the best available information regarding delays, cancellations, and
  diversions in a timely manner.

 All of the airlines included in our 2006 review made up-to-date information
 available about their flights’ status via their Internet sites or toll-free telephone
 reservation systems. However, we still found that the information provided in
 boarding areas about delays and cancellations was not timely or adequate during
 our tests. In 42 percent of our observations, airline gate agents did not make
 timely announcements (defined as approximately every 20 minutes) about the
 status of delays, and the information they provided was not adequate about
 45 percent of the time.

 This is one area where the airlines’ self-audits would be effective in monitoring
 compliance with the Commitment provision and their own internal policies.

• Disclosing Chronically Delayed Flights to Customers:             On-time flight
  performance data should also be made readily available to passengers at the time
  of booking. We recommended in our 2001 report that the airlines disclose to
  passengers at the time of booking—without being asked—the prior month’s on-
  time performance for those flights that have been consistently delayed (i.e.,
  30 minutes or greater) or cancelled 40 percent or more of the time. We have
  recommended this several times, but none of the airlines to date have chosen to
  adopt it.

 Currently, the airlines are required to disclose on-time performance only upon
 request from customers. However, the information that the agents provide about
 on-time performance through the airlines’ telephone reservation systems is not
 always accurate or adequate. In 41 percent of our 160 calls to the airlines’
 telephone reservation systems, we were told that the information was not available
 or the agents either guessed what they thought the on-time performance was or
 gave the data for only the previous day.

 The on-time performance for consistently delayed or cancelled flights is readily
 available to the airlines. Continuing to operate chronically delayed flights could
 potentially constitute a deceptive business practice. Not disclosing such chronic
 delays on a flight could be viewed as contributing to such a deceptive practice.


                                                                                    7
   Therefore, we continue to believe—as we recommended in 2001—that on-time
   performance should be disclosed at the time of booking for those flights that have
   been consistently delayed and should not require a customer request.

 • Focusing on the Training for Personnel Who Assist Passengers With
   Disabilities. The needs and perspectives of passengers with disabilities are of
   paramount importance in providing satisfactory service. This is especially true
   during extended flight delays whether the passengers are on board aircraft or in the
   airlines’ gate area.

   The ATA airlines committed to disclose their policies and procedures for assisting
   special-needs passengers, such as unaccompanied minors, and for accommodating
   passengers with disabilities in an appropriate manner.

   In our 2001 review, the airlines performed well with respect to this provision.
   However, in our 2006 review, we found that the majority of airlines (11 of 15) and
   their contractor personnel who interact with passengers with disabilities were not
   complying with the Federal training requirements or with their own policies. In
   over 15 percent of the 1,073 employee training records we reviewed, airline
   employees were either not trained, not promptly trained, did not have records to
   support completion of training, or were not current with annual refresher training.

   The airlines need to refocus their attention in this area and ensure that employees
   who assist passengers with disabilities are properly trained.

The Department Should Take a More Active Role in Airline
Customer Service Issues
Oversight and enforcement of air traveler consumer protection rules are the
responsibility of the Department’s Office of General Counsel. These rules encompass
many areas, including unfair and deceptive practices and unfair methods of
competition by air carriers and travel agents, such as deceptive advertising.

In our 2001 customer service report, we recommended that the Department be given
additional resources to investigate and enforce cases under its statutory authority, and
Congress did so. As part of our 2006 review, we examined how the Department has
used the additional resources Congress appropriated to oversee and enforce air travel
consumer protection requirements.

We found that DOT was using its additional resources to oversee and enforce air
travel consumer protection requirements with a focus on investigations and
enforcement of civil rights issues, including complaints from passengers with
disabilities. But, when DOT discovered violations and assessed penalties, it almost
always forgave the penalty if the air carrier agreed to mitigate the conditions for
which the penalty was assessed. DOT’s follow-up monitoring of compliance with


                                                                                      8
these conditions was limited, and in some cases there was no follow-up monitoring at
all. In recent years, DOT has not conducted on-site compliance reviews, relying
instead on air carriers’ self-certifications and company-prepared reports submitted
without supporting documentation.

We also found that DOT’s increased responsibilities—especially as they relate to civil
rights issues—had diverted resources away from its other consumer protection
activities, such as regular on-site consumer protection and related compliance and
enforcement visits to airlines.

Given the results of our 2006 review and the extended ground delays that stranded
passengers on board aircraft this past winter, DOT should take a more active role in
overseeing airline customer service.

The Airlines Must Overcome Challenges in Mitigating Extraordinary
Flight Disruptions
The airlines continue to face challenges in mitigating extraordinary flight disruptions,
including long, on-board delays during extreme weather. According to DOT’s
Bureau of Transportation Statistics, approximately 722,600 flights were delayed in
2006 due to poor weather conditions (10 percent of all commercial flights). For that
same year, over 73,000 flights experienced taxi-out and taxi-in times of 1 hour or
more. The airlines, the Federal Aviation Administration (FAA), and the Department
cannot prevent significant weather events. What they can do, however, is work
together to plan for such events and minimize the impact on passengers.

This past winter’s severe weather events underscored the importance of improving
customer service for passengers who are stranded on board aircraft for extended
periods of time.

 • On December 20, 2006, severe blizzards closed Denver’s airport, causing several
   airplanes to divert to other airports. United Airlines diverted two flights to
   Cheyenne, Wyoming. The following morning, United’s flight crew and attendants
   boarded the aircraft and departed, leaving all 110 passengers behind to fend for
   themselves.

 • On December 29, 2006, the Dallas-Fort Worth area experienced unseasonably
   severe weather that generated massive thunder, lightning storms, and a tornado
   warning; this caused the airport to shut down operations several times over the
   course of an 8-hour period. American Airlines diverted over 100 flights and many
   passengers were stranded on board aircraft on the airport tarmac for 6 hours or
   more.

 • On February 14, 2007, snow and ice blanketed the northeastern United States.
   JetBlue Airways stranded scores of passengers aboard its aircraft on the tarmac at

                                                                                      9
   John F. Kennedy International Airport (JFK). At 1 point during that day, JetBlue
   had 52 aircraft on the ground with only 21 available gates. JetBlue has publicly
   admitted shortcomings in its systems that were in place at the time for handling
   such situations.

 • On March 16, 2007, an ice storm hit the Northeast, causing numerous delays and
   cancellations and forcing passengers to endure long, on-board flight delays. In
   fact, several Office of Inspector General staff were flying that day and experienced
   a 9-hour, on-board delay.

Meeting Passengers’ Essential Needs During Long, On-Board Delays Is a Serious
Concern of Secretary Peters and the Department.              As a result of the
December 29, 2006, and February 14, 2007, incidents; Secretary Peters expressed
serious concerns about the airlines’ contingency planning for such situations. On
February 26, 2007, she asked our office to do the following:

 • Examine the airlines’ customer service commitments, contracts of carriage, and
   policies dealing with extended ground delays aboard aircraft.

 • Look into the specific incidents involving American and JetBlue, in light of
   whatever commitment these carriers made concerning policies and practices for
   meeting customers’ essential needs during long, on-board delays.

 • Provide recommendations as to what, if anything, the airlines, airports, or the
   Government—including the Department—might do to prevent a recurrence of
   such events and highlight any industry best practices that could help in dealing
   with such situations.

Our work in this area began March 12, 2007, with site visits to JetBlue Airways in
New York (including JFK) and American Airlines in Texas—specifically, Dallas-Fort
Worth International and Austin-Bergstrom Airports. During the past 30 days, we
have done the following:

 • Collected voluminous amounts of information and data from American and
   JetBlue regarding the events of December 29, 2006, and February 14, 2007. We
   are in the process of analyzing this information. While we are in the early stages
   of our review, we can report that American and JetBlue have revised their
   operating practices for mitigating long, on-board delays. For example, American
   instituted a new policy designed to prevent on-board delays from exceeding
   4 hours. JetBlue also set a time limit of 5 hours maximum duration for any long,
   on-board delay away from a gate.

 • Received information from other carriers providing service from Dallas-Fort
   Worth, Austin, and New York airports and met with officials from FAA air traffic


                                                                                    10
   control and those three airports. We are in the process of receiving contingency
   plans from the ATA airlines (system-wide plans) and the major airports they serve
   (each airport operator’s plan).

We expect to brief the Secretary by the end of June and issue a report shortly
thereafter.

Airlines Must Implement More Effective Contingency Plans. One observation we
can share today regarding our current review is that contingency planning for extreme
weather is not a new concern for airlines, as evidenced by the June 1999 Commitment
provision, which states that:

 • The airlines will make every reasonable effort to provide food, water, restroom
   facilities, and access to medical treatment for passengers aboard an aircraft that is
   on the ground for an extended period of time without access to the terminal, as
   consistent with passenger and employee safety and security concerns.

 • Each carrier will prepare contingency plans to address such circumstances and will
   work with carriers and the airport to share facilities and make gates available in an
   emergency.

However, as we noted in our 2001 report, the airlines had not clearly and consistently
defined terms in the Commitment provision such as “an extended period of time.”
We also noted only a few airlines’ contingency plans specify in any detail the efforts
that will be made to get passengers off the aircraft when delayed for extended periods,
either before departure or after arrival. Our opinion was then, as it is now, that this
should be a top-priority area for the airlines when implementing their contingency
plans, especially with long, on-board delays on the rise from 2005 to 2006—
particularly those exceeding 4 hours.

In response to our 2001 report recommendations, the airlines agreed to do the
following:

 • Clarify the terminology used in their customer service plans for extended delays.

 • Establish a task force to coordinate and develop contingency plans with local
   airports and FAA to deal with lengthy delays.

While a task force was formed, the effort never materialized as priorities shifted after
September 11, 2001. We are examining airline and airport contingency planning as
part of our ongoing review.




                                                                                     11
JetBlue and ATA Announced Initiatives To Address Long, On-Board Delays but
More Needs To Be Done. These two initiatives address the recent events. First, on
February 20, 2007, JetBlue published its own customer bill of rights. JetBlue plans to
offer compensation in the form of vouchers for flight disruptions, such as
cancellations. While this is a step in the right direction, this bill of rights is limited;
JetBlue needs to clarify some of the terms. The JetBlue bill of rights only addresses
3 of the 12 Commitment provisions: flight delays and cancellations, on-board delays,
and overbookings. Also, JetBlue needs to clearly define all terms in its bill of rights,
such as “Controllable Irregularity,” so that passengers will know under what specific
circumstances they are entitled to compensation.
While JetBlue believes that its bill of rights goes beyond the Commitment provisions
in some areas, re-accommodating passengers for flight cancellations is already
required under its contract of carriage. Additionally, while JetBlue will compensate
its customers for being bumped from their flights, compensation is already required
under an existing Federal regulation but not to the extent of JetBlue’s compensation
of $1,000.

Second, on February 22, 2007, ATA announced the following course of action:

 • Each airline will continue to review and update its policies to ensure the safety,
   security, and comfort of customers.

 • Each airline will work with FAA to allow long-delayed flights to return to
   terminals in order to offload passengers who choose to disembark without losing
   that flight’s position in the departure sequence.

 • ATA will ask the Department to review airline and airport emergency contingency
   plans to ensure that the plans effectively address weather emergencies in a
   coordinated manner and provide passengers with essential needs (food, water,
   lavatory facilities, and medical services).

 • ATA will ask the Department to promptly convene a meeting of air carrier,
   airport, and FAA representatives to discuss procedures to better respond to
   weather emergencies that result in lengthy flight delays.

While we understand the pressures that ATA and its member airlines face in
maintaining profitability in today’s environment, we are concerned that the actions
proposed merely shift responsibility from ATA to the Department. We agree that the
Department must be an active partner, but ATA’s proposed course of action is not
significantly different than what the airlines agreed to do in response to our 2001
recommendations, such as “to establish a task force to coordinate and develop
contingency plans with local airports and FAA to deal with lengthy delays.”



                                                                                        12
As mentioned earlier, how to ensure airline customer service is clearly a policy issue
for Congress to decide. Given the problems that customers continue to face with
airline customer service, Congress may want to consider making the Airline Customer
Service Commitment mandatory for all airlines.

However, there are actions that the airlines, airports, the Department, and FAA can
undertake immediately without being prompted by Congress to do so. For example:

 • Those airlines that have not already done so should implement quality assurance
   and performance measurement systems and conduct internal audits of their
   compliance with the Commitment provisions. The Department should use these
   systems to more efficiently review the airlines’ compliance with those
   Commitment provisions governed by Federal regulation.

 • The Department should revisit its current position on chronic delays and
   cancellations and take enforcement actions against air carriers that consistently
   advertise flight schedules that are unrealistic, regardless of the reason.

 • The airlines, airports, and FAA should establish a task force to coordinate and
   develop contingency plans to deal with lengthy delays, such as working with
   carriers and the airport to share facilities and make gates available in an
   emergency.

 • The Department’s Office of General Counsel; in collaboration with FAA, airlines,
   and airports; should review incidents involving long, on-board ground delays and
   their causes; identify trends and patterns of such events; and implement workable
   solutions for mitigating extraordinary flight disruptions.

That concludes my statement. I would be glad to answer any questions you or other
Members of the Committee might have.




                                                                                   13
The following page contains textual versions of the graphs and charts found in this
document. This page was not in the original document but has been added here to
accommodate assistive technology.
              Refocusing Efforts To Improve Airline Customer Service

                          Section 508 Compliant Presentation



Figure 1. Provisions of the Airline Customer Service Commitment

• Offer the lowest fare available.
• Notify customers of known delays, cancellations, and diversions.
• Deliver baggage on time.
• Support an increase in the baggage liability limit.
• Allow reservations to be held or cancelled.
• Provide prompt ticket refunds.
• Properly accommodate disabled and special-needs passengers.
• Meet customers’ essential needs during long, on-aircraft delays.
• Handle “bumped” passengers with fairness and consistency.
• Disclose travel itinerary, cancellation policies, frequent flyer rules, and aircraft
  configuration.
• Ensure good customer service from code-share partners.
• Be more responsive to customer complaints.
Source: Airline Customer Service Commitment, June 1999



Figure 2. Air Travel Consumer Complaints, 2006

 Flight Problems                   Accounted for 29 percent of complaints.

 Baggage                           Accounted for 22 percent of complaints.

 Customer Care                     Accounted for 13 percent of complaints.

 Reservations, Ticketing, and      Accounted for 11 percent of complaints.
 Boarding

 Refunds                           Accounted for 7 percent of complaints.

 Disability                        Accounted for 6 percent of complaints.

 Others                            Accounted for 12 percent of complaints.
Source: Department of Transportation Air Travel Consumer Reports for 2006
